COLORADO COURT OF APPEALS

DATE FILED: November 25, 2020
CASE NUMBER: 2018CA584

Court of Appeals No. 18CA0584
El Paso County District Court No. 16CR2069
Honorable Jann P. Dubois, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
James Takchuan Woo,
Defendant-Appellant.

JUDGMENT AFFIRMED
Division V
Opinion by JUDGE PAWAR
J. Jones and Berger, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced November 25, 2020

Philip J. Weiser, Attorney General, Daniel J. De Cecco, Assistant Attorney
General Fellow, Denver, Colorado, for Plaintiff-Appellee
Keyonyu X O’Connell, Alternate Defense Counsel, Denver, Colorado, for
Defendant-Appellant

Ammx a

Tf-1-------Befendant-rJam€s-T-akGhuan-Woo1-appeals_thegudgment_of
conviction entered on a jury verdict finding him guilty of first degree
murder. We affirm.
I. Background
Woo, who was married and lived in San Francisco, had been

12

having an affair with J.T., who lived near Colorado Springs with her
four children, for several years. After going to bed one night, J.T.’s
teenage son heard the garage door open and close. When he got up
in the morning, his mother was not home and he called 911. Police
tracked J.T.’s cell phone to a storage unit leased to Woo. When
police broke into the storage unit, they found J.T. dead in her car,
handcuffed to the inside of the door, having suffered numerous
gunshot wounds.
13

Shortly thereafter, law enforcement arrested Woo as he was

attempting to board a flight from Seattle to Hong Kong.
14

The prosecution charged Woo with first degree murder in June

2016. After initially being represented by a public defender, Woo
retained private counsel to take over his case in February 2017.
The trial court granted Woo’s retained counsel’s first two motions to
continue trial, originally scheduled for May 2017, to January 2018.
1

:———fi^g'nritrig-in-Nnv^mbfiP-aQlT^-WQQ-S-CQU-nseLfiled.anolher series of
motions to continue the trial. Although the trial court pushed the
trial date back one week, it otherwise denied Woo’s motions to
continue.
The trial occurred in late Januaiy and early February 2018.

If 5

The evidence included surveillance video from several different
businesses close to the storage facility where J.T. was found. There
were seven different clips from three different cameras showing
J.T.’s vehicle driving into the storage unit shortly after the
estimated time of death and a person then exiting the unit and
leaving the area in an Uber. The prosecution also introduced a
written timeline placing the individual video clips in chronological
order and summarizing the contents of each. Additionally, a police
investigator narrated the clips for the jury and identified Woo as the
individual in some of the clips.
16

The jury found Woo guilty of first degree murder after

deliberation. The trial court convicted him and sentenced him to
life without parole in the custody of the Department of Corrections.
17

On appeal, Woo argues that the trial court reversibly erred by

(1) denying his motions to continue; (2) admitting the written
2

identifying Woo as the person in the footage; and (3) failing to
suppress evidence obtained from the search of Woo’s storage unit.
We disagree with each argument and affirm.
II. Motions to Continue .
18

Woo argues that the trial court erred by denying several of his

motions to continue and that these rulings deprived him of his
constitutional rights to counsel of choice and effective assistance of
counsel. Specifically, he argues that the trial court erred by
denying his motions without making the findings required by People
v. Brown, 2014 CO 25.
19

We review a trial court’s denial of a continuance for an abuse

of discretion. See People v. Ahuero, 2017 CO 90, 111. A court
abuses its discretion by denying a motion to continue “only when,
based on the particular circumstances confronting it, its ruling on
the motion is manifestly arbitrary, unreasonable, or unfair.” Id.
(quoting People v. Crow, 789 P.2d 1104, 1106 (Colo. 1990)).
f 10

Criminal defendants have a constitutional right to be

represented by retained counsel of their choice. See Brown, 1 16.
But this right is not absolute. Id. at 1 17. It must be balanced
3

integrity of the judicial process. Id. For this reason, when a
defendant requests a continuance so that he may be represented by
counsel of choice, the trial court must consider and make a record
on the eleven factors articulated in Brown. Id. at f 24.
1 11

Importantly, when a defendant requests a continuance for a

reason other than accommodating representation by counsel of
choice, the trial court need not make findings on the Brown factors.
See People v. Travis, 2019 CO 15, ^ 12.
I 12

As mentioned above, Woo’s retained counsel took over the case

in February 2017. To allow counsel to get up to speed, the trial
court first continued the trial to May and then August 2017. Then,
in June 2017, Woo’s counsel requested another continuance based
on discovery that the prosecution had recently provided and was
continuing to provide. Notably, the justification for this
continuance had nothing to do with Woo exercising his
constitutional right to counsel of choice — instead, it was based on
the need to review voluminous evidence the prosecution had
provided since counsel had taken over the case. The trial court
granted this continuance and reset the trial for January 2018.
4

^-1-3: —

ft

continuances that are the subject of this appeal. These motions
were similar to the June 2017 motion in that they did not implicate
Woo’s right to counsel of choice. They were based on counsel’s
purported need for additional time to review recently provided
evidence. Although the trial court continued the trial for a week, it
otherwise denied these motions.
1! 14

Woo now claims that these denials were error because the trial

court failed to making findings on all the Brown factors. But
findings under Brown were not required because Woo’s motions did
not implicate his right to counsel of choice. Travis, H 12. Woo filed
the denied motions nine months sifter counsel took over the case.
And they were based on counsel’s need to review evidence provided
long after counsel took over, not to allow counsel time to get up to
speed because he was new to the case. Because the motions did
not implicate Woo’s right to counsel of choice, we disagree with Woo
that the trial court erred by failing to address the Brown factors in
denying the motions.
*|I 15

In his opening brief, Woo argues only that the trial court erred

by failing to address all of the Brown factors. For the first time in
5

rt was not
required to comply with Brown, the court nevertheless abused its
discretion by denying the motions. Although we need not address
arguments raised for the first time in a reply brief, see People v.
Montante, 2015 COA 40, f 58 n.4, we briefly explain why the
denials here were not an abuse of discretion.
1 16

When it denied Woo’s motions to continue in December 2017

the trial court had already continued the trial from May to the
following January. The trial court considered the burden of another
continuance on J.T.’s family and found that the evidence that
defense counsel claimed he needed additional time to review “had
been available to Defense for a substantial period of time.”
Moreover, at that time, there was still a month left before trial that
defense counsel could use to prepare. Under these circumstances
we conclude that the court’s ruling was not manifestly arbitrary,
unreasonable, or unfair. See Travis, If 16 (determining there was no
abuse of discretion where trial court denied motion to continue after
considering previously granted continuances, the length of time the
case had been pending, and unpersuasive arguments about why
continuance was necessary).
6

ffl-r

1 17

Woo next argues that the trial court erred by admitting a

written timeline of various admitted video surveillance clips and an
investigator’s identification of Woo in some of those clips. We
review for an abuse of discretion. See People v. Allgier, 2018 COA
122, If 43. If the trial court abused its discretion, we will reverse
only if the error was not harmless. Id. An error is harmless as long
as it does not substantially influence the verdict or affect the
fairness of the trial proceedings. See Hagos v. People, 2012 CO 63,
1 12.
A. Written Timeline
f 1.8

Woo argues that the written timeline was inadmissible under

CRE 1006 because the video clips it summarized were not so
voluminous that they required a written summary.
1 19

CRE 1006 provides that “[t]he contents of voluminous

writings, recordings, or photographs which cannot conveniently be
examined in court may be presented in the form of a chart,
summary, or calculation.” Our supreme court has explained that to
be admissible under this rule, the evidence summarized “must be
sufficiently voluminous such that in-court examination would be
7

,C. 2016

inconvenient^

CO 47M, *[f 50. But the number and size of the exhibits are not the
only factors to consider when determining whether evidence is
sufficiently voluminous to warrant a summary exhibit. Id. at If 53.
Instead, “it is the case’s complexity and the jury’s need of an aid to
understand the evidence that warrant introducing summary
exhibits.” Id.
| 20

If a summary exhibit is warranted, the exhibit should organize

the summarized evidence in a manner helpful to the jury and free
from arguments or conclusions. Id. at f 54.
121

The written timeline here was warranted and did just that. It

organized seven different video clips from three different cameras in
chronological order along with neutral descriptions of what was
seen in each clip. The timeline helped the juiy track the chronology
of events depicted in the surveillance footage without having to flip
back and forth between the different clips and reorient itself with
each switch between cameras. It helped the jury understand what
the clips as a whole showed without arguing their significance. We
therefore disagree with Woo’s argument that the summarized
evidence was insufficiently voluminous to warrant a summary.
8

———--------——----------B^Iny-estigatoris-Teslimony__________________
f 22

Woo also argues that the trial court abused its discretion by

allowing an investigator to testify that Woo was the person depicted
in the surveillance footage. We agree but conclude the error was
harmless.
% 23

Lay witnesses may offer opinion testimony if it is rationally

based on the witness’s perception and helpful to a clear
understanding of the witness’s testimony or the determination of a
fact in issue. CRE701. “Lay opinion testimony is permitted under
Rule 701 because ‘it has the effect of describing something that the
jurors could not otherwise experience for themselves by drawing
upon the witness’s sensory and experiential observations that were
made as a firsthand witness to a particular event.’” People v.
McFee, 2016 COA 97, % 76 (quoting United States v. Freeman, 730
F.3d 590, 595 (6th Cir. 2013)). But a lay witness may not “form
conclusions for jurors that they are competent to reach on their
own.” Id. Thus, a lay witness’s testimony about what a video
recording shows is improper if it is based only on having watched
the video. See id. In such a situation, the witness is in no better
position to view and interpret the video than the jury. Id.
9

1-2-4

^e-mv^stlgator-ta^er-e-testifled-that-he^yas able to identify Woo

as the person in the video clips based only on his review of those
clips. Thus, he was in no better position than the jury to identify
Woo and his identification testimony was inadmissible.
Tf 25

Nevertheless, we conclude that admitting this identification

testimony was harmless because it was consistent with Woo’s
theory of defense. During opening and closing argument, Woo’s
counsel argued that Woo found J.T. already dead and tried to delay
discovery of her body because he knew he would be the number one
suspect. The investigator identified Woo as the person in the video
who exited the storage unit after J.T.’s car drove into it and then got
in an Uber and left the facility. This was consistent with Woo’s
theory that he found J.T. already dead and tried to flee before her
death was discovered. It is therefore not reasonably probable that
the investigator’s testimony substantially influenced the verdict and
contributed to Woo’s conviction. See People v. Casias, 2012 COA
117, 1 61 (error is harmless if there is no reasonable probability
that it contributed to a defendant’s conviction).
IV. Suppression

10

7^-6-

suppress evidence obtained as a result of the warrantless search of
his storage unit. Our review of a suppression ruling presents a
mixed question of fact and law. See People v. Hyde, 2017 CO 24,
f 9. We defer to the trial court’s factual findings if they are
supported by the record and assess the legal effect of those findings
de novo. Id.
1127

Under the Fourth Amendment, a warrantless search of a

person’s property is presumptively unreasonable and therefore
illegal. See People v. Dyer, 2019 COA 161, *|f 15. The prosecution
can overcome the presumptive illegality of a warrantless search by
establishing that it falls within a recognized exception to the
warrant requirement. Id. One of these exceptions is the exigent
circumstances exception. See People v. Kluhsman, 980 P.2d 529,
534 (Colo. 1999). As relevant here, the exigent circumstances
exception applies when there is probable cause for the search and
there is a colorable claim of emergency threatening the life or safety
of another. Id.
K 28

At the suppression hearing, the trial court determined that the

officers had probable cause to search Woo’s storage unit. The court
11

■a4sa-d^t^4^iri^d^bat-breakingin-without-ajwarrant was justified
under the exigent circumstances exception because there was a
colorable claim of emergency threatening the life or safety of J.T.
The court based these conclusions on the following factual findings:
J.T.’s teenage son called 911 because although his mom
sometimes went out at night, she had never before failed
to be home in the morning and he was very concerned
about her.
J.T.’s son told officers that she had been dating Woo, was
fearful of him, and had called the police several days
before because Woo was stalking her.
J.T.’s son gave officers both of J.T.’s cell phone numbers.
Officers were able to ping the location of only one of those
cell phones, and the ping indicated that the phone was at
Woo’s storage unit.
t 29

Woo does not challenge these factual findings or the trial

court’s determination that probable cause for the search existed.
He challenges only the trial court’s determination that there was a
colorable claim of emergency threatening J.T.’s life or safety that

12

-justifed-breaking-into-the-storage_unitjwithout a warrant. Based
on the facts as found by the trial court, we disagree.
11 30

J.T. was missing and her oldest son feared for her safety. Woo

had been stalking her, she was afraid of Woo, and police had
located her cell phone at Woo’s storage unit. Based on these facts,
we conclude that the exigent circumstances exception authorized
the officers to break into Woo’s storage unit without a warrant. We
therefore disagree with Woo’s argument that the trial court erred by
failing to suppress evidence obtained as a result of that search.
V. Conclusion
f 31

The judgment of conviction is affirmed.
JUDGE J. JONES and JUDGE BERGER concur.

13

DATE FILED: March 29, 202
CASE NUMBER: 2021SC8

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to the Court of Appeals, 2018CA584
District Court, El Paso County, 2016CR2069
Petitioner:

Supreme Court Case No:
2021SC8

James Takchuan Woo,
v.

Respondent:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, MARCH 29, 2021.

Appendix 3

